U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

January 14, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Paul D. Voorhees v. United States of America,
S.Ct. No. 19-795

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December
20, 2019, and placed on the docket on December 20, 2019. The government's response is due on
January 21, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including February 20, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0795
VOORHEES, PAUL D.
USA

BENJAMIN H. DEYOUNG
AIR FORCE APPELLATE DEFENSE DIVISION
1500 W. PERIMETER RD.
SUITE 1100
JB ANDREWS NAF, MD 20762-6604
240-612-4770
BENJAMIN.H.DEYOUNG.MIL@MAIL.MIL
DONALD G. REHKOPF, JR.
REHKOPF LAW OFFICE
31 EAST MAIN STREET
2ND FLOOR
ROCHESTER, NY 14614
585-454-0232
USMILITARYLAW@GMAIL.COM

